70138                    Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

  • The designation of a compliance          industries and on home health agencies.     solvency and stability of the Medicare
officer and other appropriate bodies;        We believe that the development and         Trust Fund. Health care providers are
  • The development and                      issuance of this compliance program         relying on these billing companies to a
implementation of effective training and     guidance for third-party medical billing    greater degree in assisting them in
education programs;                          companies will serve as a positive step     processing claims in accordance with
  • The development and maintenance          towards promoting a higher level of         applicable statutes and regulations.
of effective lines of communication;         ethical and lawful conduct throughout       Additionally, health care professionals
  • The enforcement of standards             the entire health care industry.            are consulting with billing companies to
through well-publicized disciplinary         FOR FURTHER INFORMATION CONTACT:            provide timely and accurate advice with
guidelines;                                  Susan Lemanski, Office of Counsel to        regard to reimbursement matters, as
  • The use of audits and other              the Inspector General, (202) 619–2078       well as overall business decision-
evaluation techniques to monitor                                                         making. As a result, the OIG considers
compliance; and                              SUPPLEMENTARY INFORMATION:                  compliance program guidance to third-
  • The development of procedures to         Background                                  party medical billing companies
respond to detected offenses and to                                                      particularly important in efforts to
initiate corrective action.                     The creation of compliance program
                                                                                         combat health care fraud and abuse.
  The OIG would appreciate specific          guidance remains a major effort by the
                                                                                         Further, because individual billing
comments, recommendation and                 OIG in its effort to engage the health
                                                                                         companies may support a variety of
suggestions on (1) risk areas for the        care community in combating fraud and
                                                                                         providers with different specialties, we
nursing home industry, and (2) aspects       abuse. In formulating compliance
                                                                                         recommend that billing companies
of the seven elements contained in           guidance, the OIG has worked closely
                                                                                         coordinate with their provider-clients in
previous guidances that may need to be       with the Health Care Financing
                                                                                         establishing compliance
modified to reflect the unique               Administration (HCFA), the Department
                                                                                         responsibilities. Using these 7 basic
characteristics of the nursing home          of Justice (DOJ) and various sectors of
                                                                                         elements outlined above, the OIG has
industry. Detailed justifications and        the health care industry to provide clear
                                                                                         identified specific areas of third-party
empirical data supporting suggestions        guidance to those segments of the
                                                                                         medical billing company operations that
would be appreciated. The OIG is also        industry that are interested in reducing
                                                                                         may prove to be vulnerable to fraud and
hopeful that any comments,                   fraud and abuse within their
                                                                                         abuse.
recommendations and input be                 organizations. The 3 previously-issued
submitted in a format that addresses the     compliance program guidances were             Like previously-issued OIG
above topics in a concise manner, rather     focused on the hospital industry, home      compliance guidances, adoption of the
than in the form of comprehensive draft      health agencies clinical laboratories,      Compliance Program Guidance for
guidance that mirrors previous               and were published in the Federal           Third-Party Medical Billing Companies
guidances.                                   Register on February 23, 1998 (63 FR        set forth below will be strictly
                                             8987), August 7, 1998 (63 FR 42410) and     voluntary. A reprint of this compliance
  Dated: December 14, 1998.                                                              program guidance follows:
                                             August 24, 1998 (63 FR 45076) ,
June Gibbs Brown,                            respectively. The development of these
Inspector General.                                                                       Office of Inspector General’s
                                             types of compliance program guidance        Compliance Program Guidance for
[FR Doc. 98–33566 Filed 12–17–98; 8:45 am]   is based on our belief that a health care   Third-Party Medical Billing Companies
BILLING CODE 4150–04–P                       provider can use internal controls to
                                             more efficiently monitor adherence to       I. Introduction
                                             applicable statutes, regulations and
DEPARTMENT OF HEALTH AND                     program requirements.                          The Office of Inspector General (OIG)
HUMAN SERVICES                                                                           of the Department of Health and Human
                                             Elements for an Effective Compliance        Services (HHS) continues in its efforts to
Office of Inspector General                  Program                                     promote voluntarily developed and
                                                Through experience, the OIG has          implemented compliance programs for
Publication of the OIG Compliance                                                        the health care industry. The following
                                             identified 7 fundamental elements to an
Program Guidance for Third-Party                                                         compliance program guidance is
                                             effective compliance program. They are:
Medical Billing Companies                                                                intended to assist third-party medical
                                                • Implementing written policies,
AGENCY: Office of Inspector General          procedures and standards of conduct;        billing companies (hereinafter referred
(OIG), HHS.                                     • Designating a compliance officer       to as ‘‘billing companies’’) 1 and their
ACTION: Notice.                              and compliance committee;                   agents and subcontractors in developing
                                                • Conducting effective training and      effective internal controls that promote
SUMMARY:    This Federal Register notice     education;                                  adherence to applicable Federal and
sets forth the recently issued                  • Developing effective lines of          State law, and the program requirements
Compliance Program Guidance for              communication;                              of Federal, State and private health
Third-Party Medical Billing Companies           • Enforcing standards through well-      plans.
developed by the Office of Inspector         publicized disciplinary guidelines;            Billing companies are becoming a
General (OIG) in cooperation with, and          • Conducting internal monitoring and     vital segment of the national health care
with input from, the Health Care             auditing; and                               industry.2 Increasingly, health care
Financing Administration, the                   • Responding promptly to detected
Department of Justice and                    offenses and developing corrective            1 For the purposes of this compliance program

representatives of various trade             action.                                     guidance, ‘‘third-party medical billing companies’’
associations and health care practice                                                    include clearinghouses and value-added networks.
groups. The OIG has previously               Third-Party Medical Billing Companies         2 Recent survey results from the Healthcare

                                                                                         Billing and Management Association (HBMA) show
developed and published compliance             Increasingly, third-party medical         that its membership processes more than 17.6
program guidance focused on the              billing companies are providing crucial     million claims per month totaling $18 billion a
clinical laboratory and hospital             services that could greatly impact the      year.
                             Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                 70139

providers 3 are relying on billing                      previously issued by the OIG for that                  focus of Government regulation,
companies to assist them in processing                  particular sector.5                                    scrutiny and sanctions.
claims in accordance with applicable                       This guidance is pertinent for all                     It is incumbent upon a billing
statutes and regulations. Additionally,                 billing companies, large or small,                     company’s corporate officers and
health care providers are consulting                    regardless of the type of services                     managers to provide ethical leadership
with billing companies to provide                       provided. The applicability of the                     to the organization and to assure
timely and accurate advice regarding                    recommendations and guidelines                         adequate systems are in place to
reimbursement matters, as well as                       provided in this document depend on                    facilitate and promote ethical and legal
                                                        the circumstances of each particular                   conduct. Employees, managers and the
overall business decision-making. As a
                                                        billing company. However, regardless of                Government will focus on the words
result, the OIG considers the
                                                        the billing company’s size and structure,              and actions of a billing company’s
compliance guidance for third-party                     the OIG believes every billing company
medical billing companies particularly                                                                         leadership as a measure of the
                                                        can and should strive to accomplish the                organization’s commitment to
important in the partnership to defeat                  objectives and principles underlying all               compliance. Indeed, many billing
health care fraud.                                      of the compliance policies and                         companies have adopted mission
   At this juncture, it is important to                 procedures recommended within this                     statements articulating their
note the tremendous variation among                     guidance.                                              commitment to high ethical standards.
billing companies in terms of the type                     Within this document, the OIG first                 Compliance programs also provide a
of services 4 and the manner in which                   provides its general views on the value                central coordinating mechanism for
these services are provided to their                    and fundamental principles of billing                  furnishing and disseminating
respective clients. For example, some                   company compliance programs, and                       information and guidance on applicable
billing companies code the bills for their              then provides specific elements that                   Federal and State statutes, regulations
provider clients, while others only                     each billing company should consider                   and other payor requirements.
process bills that have already been                    when developing and implementing an                       The OIG believes that open and
coded by the provider. Some billing                     effective compliance program. Although                 frequent communication 6 between the
                                                        this document presents basic procedural                billing company and the health care
companies offer a spectrum of
                                                        and structural guidance for designing a                provider is fundamental to the success
management services, including
                                                        compliance program, it is not in itself a              of any compliance endeavor. Billing
accounts receivable management and
                                                        compliance program. Rather, it is a set                companies are in a unique position with
bad debt collections, while others offer                of guidelines for consideration by a
only one or none of these services.                                                                            regard to establishing compliance
                                                        billing company interested in                          programs. An individual billing
Clearly, variations in services give rise               implementing a compliance program.
to different policies to ensure effective                                                                      company may support a variety of
                                                           Fundamentally, compliance efforts
compliance. This guidance does not                                                                             providers with different specialities
                                                        are designed to establish a culture
purport to provide instruction on all                                                                          and, consequently, different risk areas.
                                                        within a billing company that promotes
aspects of regulatory compliance.                                                                              It is with this in mind that the OIG
                                                        prevention, detection and resolution of
Rather, we have concentrated our                                                                               strongly recommends the billing
                                                        instances of conduct that do not
attention on general Federal health care                                                                       company coordinate with its provider
                                                        conform to Federal and State law, and
reimbursement principles. For those                                                                            clients to establish compliance
                                                        Federal, State and private payor health
                                                                                                               responsibilities.7 Once the
billing companies that focus their                      care program requirements, as well as
                                                                                                               responsibilities have been clearly
services in a particular sector of the                  the billing company’s ethical and
                                                                                                               delineated, they should be formalized in
health care industry, the billing                       business policies. In practice, the
                                                                                                               the written contract between the
company should also consult any                         compliance program should effectively
                                                                                                               provider and the billing company. The
compliance program guidance                             articulate and demonstrate the
                                                                                                               OIG recommends the contract
                                                        organization’s commitment to legal and
                                                                                                               enumerate those functions that are
   3 For the purposes of this compliance program        ethical conduct. Eventually, a
                                                                                                               shared responsibilities and those that
guidance, ‘‘provider’’ shall include any individual,    compliance program should become
company, corporation or organization that submits                                                              are the sole responsibility of either the
                                                        part of the fabric of routine billing
claims for reimbursement to a Federal health care                                                              billing company or the provider.
                                                        company operations.
program. The term ‘‘Federal health care programs’’
                                                           Specifically, compliance programs                   Implementing an effective compliance
is applied in this document as defined in 42 U.S.C.                                                            program requires a substantial
1320a–7b(f), which includes any plan or program         guide a billing company’s governing
that provides health benefits, whether directly,        body (e.g., boards of directors or                     commitment of time, energy and
through insurance, or otherwise, which is funded
                                                        trustees), chief executive officer (CEO),              resources by senior management and the
directly, in whole or in part by the United States
                                                        managers, billing and coding personnel                 billing company’s governing body.
Federal Government (i.e., via programs such as                                                                 Superficial programs that simply
Medicare, Federal Employees’ Compensation Act,          and other employees in the efficient
Black Lung, or Longshore and Harbor Worker’s            management and operation of the                        purport to comply with the elements
Compensation Act) or any State health plan (e.g.,
                                                        company. They are especially critical as               discussed and described in this
Medicaid, or program receiving funds from block
                                                        an internal quality assurance control in               guidance or programs hastily
grants for social services or child health services).                                                          constructed and implemented without
Also, for purposes of this document, the term           reimbursement and payment areas,
‘‘Federal health care program requirements’’ refers     where claims and billing operations are                appropriate ongoing monitoring will
to the statutes, regulations, rules, requirements,
directives and instructions governing Medicare,
                                                        often the source of fraud and abuse and,                 6 E.g., the billing company should communicate

Medicaid and all other Federal health care              therefore, historically have been the                  the results of audits, determinations of
programs.                                                                                                      inappropriate claim submissions and notifications
   4 Billing companies provide services for virtually     5 See 63 FR 45076 (8/24/98) for Compliance           of overpayments.
every aspect of the health care industry. Among the     Program Guidance for Clinical Laboratories; 63 FR        7 At a minimum, the billing company should send

areas of greatest concentration for billing companies   42410 (8/7/98) for Compliance Program Guidance         a copy of its compliance program to all of its
are: physicians, ambulatory surgery centers (ASCs),     for Home Health Agencies; 63 FR 8987 (2/23/98) for     provider clients. The billing company should also
durable medical equipment, prosthetics, orthotics       Compliance Program Guidance for Hospitals. These       coordinate with its provider clients in the
and supplies (DMEPOS) industry, home health             documents are also located on the Internet at http:/   development of a training program, an audit plan
agencies (HHAs) and hospitals.                          /www.dhhs.gov/progorg/oig.                             and policies for investigating misconduct.
70140                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

likely be ineffective and could expose                   • The ability to obtain an accurate                within the industry, there is no single
the billing company to greater liability              assessment of employee and contractor                 ‘‘best’’ compliance program. The OIG
than no program at all. Additionally, an              behavior relating to fraud and abuse;                 understands the variances and
ineffective compliance program may                       • Increased likelihood of                          complexities within the industry and is
expose the billing company’s provider                 identification and prevention of                      sensitive to the differences between
clients to liability where those providers            criminal and unethical conduct;                       large and small billing companies.
rely on the billing company’s expertise                  • A centralized source for distributing            Similarly, the OIG understands the
and its assurances of an effective                    information on health care statutes,                  availability of resources for any one
compliance program. Although it may                   regulations and other program directives              billing company can differ vastly, given
require significant additional resources              related to fraud and abuse and related                that billing companies vary greatly in
or reallocation of existing resources to              issues;                                               the type of services offered and the
implement an effective compliance                        • A methodology that encourages                    manner that they are provided.
program, the long term benefits of                    employees to report potential problems;               Nonetheless, elements of this guidance
implementing the program significantly                   • Procedures that allow the prompt,                can be used by all billing companies,
outweigh the costs. Undertaking a                     thorough investigation of possible                    regardless of size, location or corporate
voluntary compliance program is a                     misconduct by corporate officers,                     structure, to establish an effective
beneficial investment that advances                   managers, employees and independent                   compliance program. The OIG
both the billing company’s organization               contractors, who can impact billing                   recognizes some billing companies may
and the stability and solvency of the                 decisions;                                            not be able to adopt certain elements to
Medicare program.                                        • An improved relationship with the                the same comprehensive degree that
                                                      applicable Medicare contractor;                       others with more extensive resources
A. Benefits of a Compliance Program                      • Early detection and reporting,                   may achieve. This guidance represents
   The OIG believes an effective                      minimizing the loss to the Government                 the OIG’s suggestions on how a billing
compliance program provides a                         from false claims, and thereby reducing               company can best establish internal
mechanism that brings the public and                  the billing company’s exposure to civil               controls and monitor company conduct
private sectors together to reach mutual              damages and penalties, criminal                       to correct and prevent fraudulent
goals of reducing fraud and abuse,                    sanctions, and administrative remedies,               activities. By no means should the
improving operational quality,                        such as program exclusion; 9 and                      contents of this guidance be viewed as
improving the quality of health care and                 • Enhancement of the structure of the              an exclusive discussion of the advisable
reducing the costs of health care.                    billing company’s operations and the                  elements of a compliance program. On
Attaining these goals provides positive               consistency between separate business                 the contrary, the OIG strongly
results to business, Government and                   units.                                                encourages billing companies to
individual citizens alike. In addition to                Overall, the OIG believes that an                  develop and implement compliance
fulfilling its legal duty to ensure that it           effective compliance program is a sound               elements that uniquely address the
is not submitting false or inaccurate                 business investment on the part of a                  individual billing company’s risk areas.
claims to Government and private                      billing company.                                         The OIG appreciates that the success
payors, a billing company may gain                       The OIG recognizes the                             of the compliance program guidance
numerous additional benefits by                       implementation of an effective                        hinges on thoughtful and practical
implementing an effective compliance                  compliance program may not entirely                   comments from those individuals and
program. These benefits may include:                  eliminate fraud, abuse and waste from                 organizations that will utilize the tools
   • The formulation of effective                     an organization. However, a sincere                   set forth in this document. In a
internal controls to assure compliance                effort by billing companies to comply                 continuing effort to collaborate closely
with Federal regulations, private payor               with applicable Federal and State                     with the private sector, the OIG solicited
policies and internal guidelines;                     standards, as well as the requirements of             input and support from representatives
   • Improved medical record                          private health care programs, through                 of the major trade associations in the
documentation; 8                                      the establishment of an effective                     development of this compliance
   • Improved collaboration,                          compliance program, significantly                     program guidance. Further, we took into
communication and cooperation among                   reduces the risk of unlawful or improper              consideration previous OIG
health care providers and those                                                                             publications, such as Special Fraud
                                                      conduct.
processing and using health                                                                                 Alerts,10 the recent findings and
information;                                          B. Application of Compliance Program                  recommendations in reports issued by
   • The ability to more quickly and                  Guidance                                              OIG’s Office of Audit Services,
accurately react to employees’                          Given the diversity in size and                     comments from the HCFA, as well as
operational compliance concerns and                   services offered by billing companies                 the experience of past and recent fraud
the capability to effectively target
                                                                                                            investigations related to billing
resources to address those concerns;
   • A more efficient communications
                                                         9 The OIG, for example, will consider the
                                                                                                            companies conducted by OIG’s Office of
                                                      existence of an effective compliance program that     Investigations and the DOJ.
system that establishes a clear process               pre-dated any governmental investigation when
                                                                                                               As appropriate, this guidance may be
and structure for addressing compliance               addressing the appropriateness of administrative
                                                      sanctions. However, the burden is on the billing      modified and expanded as more
concerns quickly and effectively;
   • A concrete demonstration to
                                                      company to demonstrate the operational                information and knowledge is obtained
                                                      effectiveness of a compliance program. Further, the   by the OIG, and as changes in the law,
employees and the community at large                  False Claims Act, 31 U.S.C. 3729–3733, provides
of the billing company’s strong                       that a person who has violated the Act, but who       and in the rules, policies and
commitment to honest and responsible                  voluntarily discloses the violation to the            procedures of the Federal, State and
corporate conduct;
                                                      Government within thirty days of detection, in        private health plans occur. The OIG
                                                      certain circumstances will be subject to not less     understands billing companies will
                                                      than double, as opposed to treble, damages. See 31
  8 Billing and coding personnel can provide          U.S.C. 3729(a). Thus, the ability to react quickly    need adequate time to react to these
critical advice to physicians and other health care   when violations of the law are discovered may
providers that may greatly improve the quality of     materially help reduce the billing company’s           10 Special Fraud Alerts are available on the OIG

medical record documentation.                         liability.                                            website at http://www.dhhs.gov/progorg/oig.
                             Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                        70141

modifications and expansions and to                      company can implement all of the                          (5) The development of a system to
make any necessary changes to their                      recommended elements, expanding                        respond to allegations of improper/
voluntary compliance programs. New                       upon the seven steps of the Federal                    illegal activities and the enforcement of
compliance practices may eventually be                   Sentencing Guidelines. The OIG                         appropriate disciplinary action against
incorporated into this guidance if the                   recognizes full implementation of all                  employees who have violated internal
OIG discovers significant enhancements                   elements may not be immediately                        compliance policies, applicable statutes,
to better ensure an effective compliance                 feasible for all billing companies.                    regulations or Federal, State or private
program. We recognize the development                    However, as a first step, a good faith and             payor health care program requirements;
and implementation of compliance                         meaningful commitment on the part of                      (6) The use of audits and/or other risk
programs in billing companies often                      the billing company administration,                    evaluation techniques to monitor
raise sensitive and complex legal and                    especially the governing body and the                  compliance and assist in the reduction
managerial issues.11 However, the OIG                    CEO, will substantially contribute to the              of identified problem areas;18 and
wishes to offer what it believes is                      program’s successful implementation.                      (7) The investigation and correction of
critical guidance for those who are                      As the compliance program is                           identified systemic problems and the
sincerely attempting to comply with the                  implemented, that commitment should                    development of policies addressing the
relevant health care statutes and                        cascade down through the management                    non-employment of sanctioned
regulations.                                             to every employee in the organization.                 individuals.
                                                         At a minimum, comprehensive                            A. Written Policies and Procedures
II. Compliance Program Elements                          compliance programs should include
   The elements proposed by these                        the following seven elements:                             Every compliance program should
guidelines are similar to those of the                      (1) The development and distribution                require the development and
clinical laboratory model compliance                     of written standards of conduct, as well               distribution of written compliance
program guidance published by the OIG                    as written policies and procedures that                policies, standards and practices that
in February 1997 (updated in August                      promote the billing company’s                          identify specific areas of risk and
                                                         commitment to compliance (e.g., by                     vulnerability to the billing company.
1998), the hospital compliance program
                                                         including adherence to the compliance                  These policies should be developed
guidance published in February 1998,
                                                         program as an element in evaluating                    under the direction and supervision of
the home health compliance program
                                                         managers and employees) and that                       the chief compliance officer and the
guidance published in August 1998 12
                                                         address specific areas of potential fraud,             compliance committee (if such a
and our corporate integrity
                                                         such as the claims submission process,                 committee is practicable for the billing
agreements.13 The elements represent a
                                                         code gaming and financial relationships                company) and, at a minimum, should be
guide that can be tailored to fit the
                                                         with its providers;                                    provided to all individuals who are
needs and financial realities of a
                                                            (2) The designation of a chief                      affected by the particular policy at issue,
particular billing company, large or
                                                         compliance officer and other                           including the billing company’s agents
small, regardless of the type of services
                                                         appropriate bodies, e.g., a corporate                  and independent contractors 19 who may
offered. The OIG is cognizant that with                                                                         affect billing decisions.
regard to compliance programs, one                       compliance committee, charged with
model is not suitable to every                           the responsibility of operating and                    1. Standards of Conduct
organization. Nonetheless, the OIG                       monitoring the compliance program and
                                                         who report directly to the CEO and the                    Billing companies should develop
believes every billing company,                                                                                 standards of conduct for all affected
regardless of size, structure or services                governing body; 16
                                                            (3) The development and                             employees that include a clearly
offered can benefit from the principles                                                                         delineated commitment to compliance
                                                         implementation of regular, effective
espoused in this guidance.                                                                                      by the billing company’s senior
                                                         education and training programs for all
   The OIG believes every effective                                                                             management 20 and its divisions. The
                                                         affected employees; 17
compliance program must begin with a                        (4) The creation and maintenance of                 standards should function in the same
formal commitment 14 by the billing                      a process, such as a hotline, to receive               fashion as a constitution, i.e., as a
company’s governing body to include                      complaints and the adoption of                         foundational document that details the
all of the applicable elements listed                    procedures to protect the anonymity of
below. These elements are based on the                   complainants and to protect callers from                 18 For example, spot-checking the work of coding

seven steps of the Federal Sentencing                    retaliation;
                                                                                                                and billing personnel periodically should be an
Guidelines.15 We believe every billing                                                                          element of an effective compliance program.
                                                                                                                Identification of risk areas, discussed in further
                                                         detailed policies and practices for the Federal        detail in section II.A.2, is the first step in correcting
  11 Nothing stated herein should be substituted for,
                                                         criminal justice system that prescribe appropriate     aberrant billing patterns.
or used in lieu of, competent legal advice from          sanctions for offenders convicted of Federal crimes.     19 According to the Federal Sentencing
counsel.                                                    16 The integral functions of a compliance officer   Guidelines, an organization must have established
  12 See note 5.
                                                         and a corporate compliance committee in                compliance standards and procedures to be
  13 Corporate integrity agreements are executed as
                                                         implementing an effective compliance program are       followed by its employees and other agents in order
part of a civil settlement agreement between the         discussed throughout this compliance guidance.         to receive sentencing credit for an ‘‘effective’’
health care provider or entity responsible for billing   However, the OIG recognizes that the differences in    compliance program. The Federal Sentencing
for the provider and the Government to resolve a         the sizes and structures of billing companies will     Guidelines define ‘‘agent’’ as ‘‘any individual,
case based on allegations of health care fraud or        result in differences in the ways in which             including a director, an officer, an employee, or an
abuse. These OIG-imposed programs are in effect          compliance programs are set up. The important          independent contractor, authorized to act on behalf
for a period of three to five years and require many     thing is that the billing company structures its       of the organization.’’ See United States Sentencing
of the elements included in this compliance              compliance program in such a way that the program      Commission Guidelines, Guidelines Manual, 8A1.2,
guidance.                                                is able to accomplish the key functions of a           Application Note 3(d).
  14 Formal commitment may include a resolution          corporate compliance officer and a corporate             20 The OIG strongly encourages high-level
by the board of directors, where applicable. A           compliance committee discussed within this             involvement by the billing company’s governing
formal commitment does include the allocation of         document.                                              body, chief executive officer, chief operating officer,
adequate resources to ensure that each of the               17 Training and education programs for billing      general counsel and chief financial officer, in the
elements is addressed.                                   companies should be detailed and comprehensive.        development of standards of conduct. Such
  15 See United States Sentencing Commission             They should cover specific billing and coding          involvement should help communicate a strong and
Guidelines, Guidelines Manual, 8A1.2, comment.           procedures, as well as the general areas of            explicit organizational commitment to compliance
(n.3(k)). The Federal Sentencing Guidelines are          compliance.                                            goals and standards.
70142                       Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

fundamental principles, values and                    necessary steps to take in reviewing a                    Furthermore, the OIG recommends that
framework for action within an                        billing document. Specific attention                      billing companies conduct a
organization. Standards should                        should be placed on the proper steps the                  comprehensive self-administered risk
articulate the billing company’s                      coder should take if unable to locate a                   analysis or contract for an independent
commitment to comply with all Federal                 code for a documented diagnosis or                        risk analysis by experienced health care
and State standards, with an emphasis                 procedure or if the medical record                        consulting professionals. This risk
on preventing fraud and abuse. They                   documentation is not sufficient to                        analysis should identify and rank the
should state the organization’s mission,              determine a diagnosis or procedure.23                     various compliance and business risks
goals and ethical principles relating to              Billing companies that provide                            the company may experience in its daily
compliance and clearly define the                     additional services should consider                       operations.
organization’s commitment to                          consulting an attorney for guidance on                       Once completed, the risk analysis
compliance and its expectations for all               other regulatory issues.24                                should serve as the basis for the written
billing company governing body                                                                                  policies the billing company should
                                                      a. Risk Assessment—All Billing
members, officers, managers,                                                                                    develop. The OIG has provided the
                                                      Companies
employees, and, where appropriate,                                                                              following specific list of particular risk
contractors and other agents. The                        The OIG believes a billing company’s                   areas that should be addressed by
standards should promote integrity,                   written policies and procedures, its                      billing companies. It should be noted
support objectivity and foster trust.                 educational program and its audit and                     that this list is not all-encompassing and
Standards should not only address                     investigation plans should take into                      the risk analysis completed as a result
compliance with statutes and                          consideration the particular statutes,                    of the company’s audit may provide a
regulations, but should also set forth                rules and program instructions that                       more individualized road map.
broad principles that guide employees                 apply to each function or department of                   Nonetheless, this list is a compilation of
in conducting business professionally                 the billing company. Consequently, we                     several years of OIG audits,
and properly. Furthermore, a billing                  recommend coordination between these                      investigations and evaluations and
company’s standards of conduct should                 functions with an emphasis on areas of                    should provide a solid starting point for
reflect a commitment to the highest                   special concern that have been                            a company’s initial effort.
quality health data submission, as                    identified by the OIG through its                            Among the risk areas the OIG has
evidenced by its accuracy, reliability,               investigative and audit functions.25                      identified as particularly problematic
timeliness and validity.                                                                                        are:26
                                                                                                                   • Billing for items or services not
                                                        23 If the coding staff finds the physician’s
2. Written Policies for Risk Areas                    documentation to be unclear or conflicting, then
                                                      they should ask the physician for clarification. This     actually documented;27
   As part of its commitment to                                                                                    • Unbundling;28
                                                      will frequently allow the coder to choose a more
compliance, billing companies should                  appropriate code. If the coder does not know how             • Upcoding,29 such as, for example,
establish a comprehensive set of                      to code a particular type of bill for Medicare            DRG creep;30
policies that delineate billing and                   payment, he or she should first consult with a
                                                                                                                   • Inappropriate balance billing;31
coding procedures for the company. In                 supervisor. If the question persists, the supervisor
                                                      should contact the provider’s carrier/intermediary.          • Inadequate resolution of
contrast to the standards of conduct,                 The billing company could also contact an                 overpayments;32
which are designed to be a clear and                  authoritative coding organization. For example, the
concise collection of fundamental                     American Hospital Association maintains a central         Section G regarding investigations, reporting and
standards, the written policies should                office on ICD–9–CM. All such correspondence               correction of identified problems.
                                                      should be maintained in a log. In the rare instance
articulate specific procedures personnel              that the documentation appears to be for a new type
                                                                                                                  26 The OIG’s work plan is currently available on

should follow when submitting initial                                                                           the Internet at http://www.dhhs.gov/progorg/oig.
                                                      of disease or syndrome, the supervisor can send an
                                                                                                                The OIG Work Plan details the various projects the
or follow-up claims to Federal health                 inquiry to the National Center for Health Statistics,
                                                                                                                OIG intends to address in the fiscal year. The Work
care programs.                                        6525 Belcrest Road, Room 1100, Hyattsville, MD
                                                                                                                Plan contains the projects of the Office of Audit
                                                      20782.
   Among the issues to be addressed in                  24 For example, billing companies that provide
                                                                                                                Services, Office of Evaluation and Inspections,
the polices are the education and                                                                               Office of Investigations and the Office of Counsel
                                                      marketing services should develop policies to             to the Inspector General.
training requirements for billing and                 ensure compliance with the anti-kickback statute.           27 Billing for items or services not actually
coding personnel; the risk areas for                  42 U.S.C. 1320a–7b(b). In addition, such policies
                                                                                                                documented involves submitting a claim that
fraud, waste and abuse; the integrity of              should provide that the billing company shall not
                                                                                                                cannot be substantiated in the documentation.
                                                      submit or cause to be submitted to health care
the billing company’s information                     programs claims for patients by virtue of a
                                                                                                                  28 Unbundling occurs when a billing entity uses

system; the methodology for resolving                 compensation agreement that was designed to               separate billing codes for services that have an
                                                                                                                aggregate billing code.
ambiguities in the provider’s                         induce such referrals in violation of the anti-
                                                                                                                  29 Upcoding reflects the practice of using a billing
paperwork;21 the procedure for                        kickback statute, or similar Federal or State statute
                                                      or regulation. Further, the policies and procedures       code that provides a higher reimbursement rate
identifying and reporting credit                      should reference the OIG’s safe harbor regulations,       than the billing code that actually reflects the
balances; and the procedure to ensure                 clarifying those payment practices that would be          service furnished to the patient. Upcoding has been
duplicate bills are not submitted in an               immune from prosecution under the anti-kickback           a major focus of the OIG’s law enforcement efforts.
                                                      statute. See 42 CFR 1001.952.                             In fact, the Health Insurance Portability and
attempt to gain duplicate payment.                      25 The OIG periodically issues Special Fraud            Accountability Act of 1996 added another civil
   Billing companies that provide coding              Alerts setting forth activities believed to raise legal   monetary penalty to the OIG’s sanction authorities
services should provide additional                    and enforcement issues. Billing company                   for upcoding violations. See 42 U.S.C. 1320a–
policies for risk areas that apply                    compliance programs should require the legal staff,       7a(a)(1)(A).
                                                                                                                  30 DRG creep is a variety of upcoding that
specifically to coding.22 The policies                chief compliance officer or other appropriate
                                                      personnel to carefully consider any and all Special       involves the practice of billing using a Diagnosis
and procedures should describe the                    Fraud Alerts issued by the OIG that relate to health      Related Group (DRG) code that provides a higher
                                                      care providers to which they offer services.              reimbursement rate than the DRG code that
  21 Billing company personnel should maintain an
                                                      Moreover, the compliance programs should address          accurately reflects patient’s diagnosis.
open dialogue with their providers regarding          the ramifications of failing to cease and correct any       31 Inappropriate balance billing refers to the

documentation issues. If the documentation            conduct criticized in such a Special Fraud Alert, if      practice of billing Medicare beneficiaries for the
received from a provider is ambiguous or              applicable to billing companies, or to take               difference between the total provider charges and
conflicting, the billing company should contact the   reasonable action to prevent such conduct from            the Medicare Part B allowable payment.
provider for clarification or resolution.             reoccurring in the future. If appropriate, billing          32 An overpayment is an improper or excessive
  22 See section II.A.2.b.                            companies should take the steps described in              payment made to a health care provider as a result
                             Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                      70143

   • Lack of integrity in computer                         • Billing company incentives that                    incorporated into the written policies
systems;33                                               violate the anti-kickback statute or other             and procedures and training elements
   • Computer software programs that                     similar Federal or State statute or                    developed as part of their compliance
encourage billing personnel to enter                     regulation; 40                                         programs.
data in fields indicating services were                    • Joint ventures; 41                                    Billing companies that do not code
rendered though not actually performed                     • Routine waiver of copayments and                   bills should implement policies that
or documented;                                           billing third-party insurance only; 42 and             require notification to the provider who
   • Failure to maintain the                               • Discounts and professional                         is coding to implement and follow
confidentiality of information/records;34                courtesy.43                                            compliance safeguards with respect to
   • Knowing misuse of provider                            A billing company’s prior history of                 documentation of services rendered.
identification numbers, which results in                 noncompliance with applicable statutes,                Moreover, the OIG recommends that
improper billing;35                                      regulations and Federal health care                    billing companies who do not code for
   • Outpatient services rendered in                     program requirements may indicate                      their provider clients incorporate in
connection with inpatient stays; 36                      additional types of risk areas where the               their contractual agreements the
   • Duplicate billing in an attempt to                  billing company may be vulnerable and                  provider’s acknowledgment and
gain duplicate payment; 37                               may require necessary policy measures                  agreement to address the following
   • Billing for discharge in lieu of                    to prevent avoidable recurrence.44                     coding compliance safeguards.45
transfer; 38                                             Additional risk areas should be assessed
   • Failure to properly use modifiers; 39               by billing companies as well as                        b. Risk Assessment—Billing Companies
                                                                                                                That Provide Coding Services
of patient billing or claims processing errors for       specific circumstance, but not changed in its
which a refund is owed by the provider. Examples
                                                                                                                   The written policies and procedures
                                                         definition or code. Assuming the modifier is used
of Medicare overpayments include instances where         correctly and appropriately, this specificity
                                                                                                                concerning proper coding should reflect
a provider is: (1) Paid twice for the same service       provides the justification for payment for these       the current reimbursement principles
either by Medicare or by Medicare and another            services. For correct use of modifiers, the billing    set forth in applicable statutes,
insurer or beneficiary; or (2) paid for services         company should reference the appropriate sections
planned but not performed or for non-covered
                                                                                                                regulations 46 and Federal, State or
                                                         of the Medicare carrier manual. For general
services. Billing companies should institute             information on the correct use of modifiers, the
                                                                                                                private payor health care program
procedures to provide for timely and accurate            billing personnel should also reference the Correct    requirements and should be developed
reporting to both the provider and the health care       Coding Initiative. See Medicare Carrier Manual         in tandem with organizational
program of overpayments.                                 § 4630.
   33 Because billing companies are in the business
                                                                                                                standards. Furthermore, written policies
                                                            40 For billing companies that provide marketing
of processing health care information, it is essential                                                          and procedures should ensure that
                                                         services, percentage arrangements may implicate
they develop policies and procedures to ensure the       the anti-kickback statute. See 42 U.S.C. 1320a–7b(b)   coding and billing are based on medical
integrity of the information they process and to         and 59 FR 65372 (12/19/94). Cf. OIG Ad. Op. 98–        record documentation. Particular
ensure that records can be easily located and            10 (1998). The OIG has a longstanding concern that     attention should be paid to issues of
accessed within a well-organized filing or               percentage billing arrangements may increase the
alternative retrieval system. All billing companies                                                             appropriate diagnosis codes, DRG
                                                         risk of upcoding and similar abusive billing
should have a back-up system (whether by disk,           practices. See, e.g., OIG Ad. Op. 98–1 (1998) and      coding, individual Medicare Part B
tape or system) to ensure the integrity of data.         OIG Ad. Op. 98–4 (1998).                               claims (including documentation
Policies should provide for a regular system back-          41 The OIG is troubled by the proliferation of      guidelines for evaluation and
up to ensure that no information is lost.                business arrangements that may violate the anti-
   34 All billing companies should develop,
                                                                                                                management services) and the use of
                                                         kickback statute. Such arrangements are generally
implement, audit and enforce policies and                established between those in a position to refer
                                                                                                                patient discharge codes.47 The billing
procedures to ensure the confidentiality and             business, such as physicians, and those providing      company should also institute a policy
privacy of financial, medical, personnel and other       items or services for which a Federal health care      that all rejected claims pertaining to
sensitive information in their possession. These         program pays. Sometimes established as ‘‘joint
policies should address both electronic and hard
                                                                                                                diagnosis and procedure codes be
                                                         ventures,’’ these arrangements may take a variety of
copy documents.                                          forms. The OIG currently has a number of
                                                                                                                reviewed by the coder or the coding
   35 Of particular concern, billing companies should
                                                         investigations and audits underway that focus on       department. This should facilitate a
be aware of the provisions of reassignment of            such areas of concern. Similarly, the billing
benefits. These provisions govern who may receive        company should not confer gifts/entertainment             45 The following risk areas are in no way a
payment due to a provider or supplier of services        upon the client-provider as this could also            comprehensive list of risk areas for health care
or a beneficiary. See 42 CFR §§ 424.70–424.80. See       implicate the anti-kickback statute.                   providers. They are merely a suggested list of
also Medicare Carrier Manual § 3060.10.                     42 Billing companies should encourage providers     documentation risks. They do not address the
   36 Billing companies that submit claims for non-
                                                         to make a good faith effort to collect copayments,     additional risk areas that apply to health care
physician outpatient services that were already          deductibles and non-covered services from              providers (e.g., medical necessity issues).
included in the hospital’s inpatient payment under       federally and privately-insured patients. Billing         46 The official coding guidelines are promulgated
the Prospective Payment System (PPS) are in effect       ‘‘insurance only’’ may violate the False Claims Act,   by the HCFA, the National Center for Health
submitting duplicate claims.                             the anti-kickback statute, the Civil Monetary          Statistics, the American Medical Association and
   37 Duplicate billing occurs when the billing          Penalties Law, 42 U.S.C. 1320a–7a(a)5, as amended      the American Health Information Management
company submits more than one claim for the same         by Pub. L. 104–91 section 231(h), and State laws.      Association. See International Classification of
service or the bill is submitted to more than one        For additional information on this problem, the OIG    Diseases, 9th Revision, Clinical Modification (ICD–
primary payor at the same time. Although duplicate       has published a Special Fraud Alert on the routine     9 CM) (and its successors); 1998 HCFA Common
billing can occur due to simple error, knowing           waiver of copayments or deductibles under              Procedure Coding System (HCPCS) (and its
duplicate billing—which is sometimes evidenced           Medicare Part B. See 59 FR 65,373 (12/19/94).          successors); and Physicians’ Current Procedural
by systematic or repeated double billing—can create         43 Discounts and professional courtesy may not be   Terminology (CPT) TM. In addition, there are
liability under criminal, civil or administrative law,   appropriate unless the total fee is discounted or      specialized coding systems for specific segments of
particularly if any overpayment is not promptly          reduced. In such situations, the payor (e.g.,          the health care industry. Among these are ADA (for
refunded.                                                Medicare, Medicaid or any other private payor)         dental procedures), DSM IV (psychiatric health
   38 Under the Medicare regulations, when a PPS         should receive its proportional share of the           benefits) and DMERCs (for durable medical
hospital transfers a patient to another PPS hospital,    discount or reduction.                                 equipment, prosthetics, orthotics and supplies).
only the hospital to which the patient was                  44 ‘‘Recurrence of misconduct similar to that          47 The failure of a provider to: (i) Document items
transferred may charge the full DRG; the                 which an organization has previously committed         and services rendered; and (ii) properly submit
transferring hospital should charge Medicare only        casts doubt on whether it took all reasonable steps    them for reimbursement is a major area of potential
a per diem amount. See 42 CFR 412.4.                     to prevent such misconduct’’ and is a significant      fraud and abuse in Federal health care programs.
   39 A modifier, as defined by the CPT–4 manual,        factor in the assessment of whether a compliance       The OIG has undertaken numerous audits,
provides the means by which the reporting position       program is effective. See United States Sentencing     investigations, inspections and national
(or provider) can indicate a service or procedure        Commission Guidelines, Guidelines Manual, 8A1.2,       enforcement initiatives aimed at reducing potential
that has been performed has been altered by some         Application Note 3(7)(ii).                             and actual fraud, abuse and waste in these areas.
70144                         Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

reduction in similar errors. Among the                    user-friendly index for coding policies              documentation supports the claims and
risk areas that billing companies who                     and procedures to ensure that specific               only when such documentation is
provide coding services should address                    information can be readily located.                  maintained, appropriately organized in
are:                                                      Similarly, for billing companies that                legible form and available for audit and
   • Internal coding practices; 48                        provide coding services, the billing                 review. The documentation, which may
   • ‘‘Assumption’’ coding; 49                            company should assure that essential                 include patient records, should record
   • Alteration of the documentation;                     coding materials are readily accessible              the time spent in conducting the activity
   • Coding without proper                                to all coding staff.52                               leading to the record entry and the
documentation 50 of all physician and                       Finally, billing companies should                  identity of the individual providing the
other professional services;                              emphasize in their standards the                     service;
   • Billing for services provided by                                                                             • Indicate that the diagnosis and
                                                          importance of safeguarding the
unqualified or unlicensed clinical                                                                             procedures reported on the
                                                          confidentiality of medical, financial and
personnel;                                                                                                     reimbursement claim should be based
                                                          other personal information in their
   • Availability of all necessary                                                                             on the medical record and other
documentation at the time of coding;                      possession.
                                                                                                               documentation, and that the
and                                                       3. Claim Submission Process                          documentation necessary for accurate
   • Employment of sanctioned
                                                            A number of the risk areas identified              code assignment should be available to
individuals.51
   Billing companies that provide coding                  above, pertaining to the claim                       coding staff at the time of coding. The
services should maintain an up-to-date,                   development and submission process,                  HCFA Common Procedure Coding
                                                          have been the subject of administrative              System (HCPCS), International
   48 Internal coding practices, including software       proceedings, as well as investigations               Classification of Disease (ICD), Current
edits, should be reviewed periodically to determine       and prosecutions under the civil False               Procedural Terminology (CPTTM), any
consistency with all applicable Federal, State and        Claims Act and criminal statutes.                    other applicable code or revenue code
private payor health care program requirements.                                                                (or successor code(s) ) used by the
   49 This refers to the coding of a diagnosis or
                                                          Settlement of these cases often has
procedure without supporting clinical                     required the defendants to execute                   coding staff should accurately describe
documentation. Coding personnel must be aware of          corporate integrity agreements, in                   the service that was ordered by the
the need for documented verification of services          addition to paying significant civil                 physician;
from the attending physician.                             damages and/or criminal fines and                       • Provide that the compensation for
   50 While proper documentation is the
                                                          penalties. These corporate integrity                 billing department coders and billing
responsibility of the health care provider, the coder
should be aware of proper documentation                   agreements have provided the OIG with                consultants should not provide any
requirements and should encourage providers to            a mechanism to advise billing                        financial incentive to improperly
document their services appropriately. Depending          companies concerning acceptable                      upcode claims; 53
on the circumstances, proper documentation can
                                                          practices to ensure compliance with                     • Establish and maintain a process for
include:
   (1) The reason for the patient encounter;              applicable Federal and State statutes,               pre- and post-submission review of
   (2) An appropriate history and evaluation;             regulations and program requirements.                claims 54 to ensure claims submitted for
   (3) Documentation of all services;                     The following recommendations                        reimbursement accurately represent
   (4) Documentation of reasons for the services;         include a number of provisions from                  services provided, are supported by
   (5) An ongoing assessment of the patient’s             various corporate integrity agreements.              sufficient documentation and are in
condition;                                                                                                     conformity with any applicable
   (6) Information on the patient’s progress and
                                                          Although these recommendations
treatment outcome;                                        include examples of effective policies,              coverage criteria for reimbursement; and
   (7) A documented treatment plan;                       each billing company should develop its                 • Obtain clarification from the
   (8) A plan of care, including treatments,              own specific policies tailored to fit its            provider when documentation is
medications (including dosage and frequency),             individual needs.                                    confusing or lacking adequate
referrals and consultations, patient and family
                                                            With respect to claims, a billing                  justification.
education, and follow-up care;                                                                                    Because coding for providers often
   (9) Changes in treatment plan;                         company’s written policies and
                                                          procedures should reflect and reinforce              involves the interpretation of medical
   (10) Documentation of medical rationale for the
services rendered;                                        current Federal and State statutes. The              diagnosis and other clinical data and
   (11) Documentation that supports the standards         policies must create a mechanism for                 documentation, a billing company may
of medical necessity, e.g., certificates of medical
                                                          the billing or reimbursement staff to                wish to contract with/assign a qualified
necessity for DMEPOS and home health services;                                                                 physician to provide guidance to the
   (12) Abnormal test results addressed in the            communicate effectively and accurately
                                                          with the health care provider. Policies              coding staff regarding clinical issues.
physician’s documentation;
   (13) Identification of relevant health risk factors;   and procedures should:                               Procedures should be in place to access
   (14) Documentation that meets the E & M codes            • Ensure that proper and timely                    medical experts when necessary. Such
billed;                                                   documentation of all physician and                   procedures should allow for medical
   (15) Medical records that are dated and
                                                          other professional services is obtained              personnel to be available for guidance
authenticated; and/or                                                                                          without interrupting or interfering with
   (16) Prescriptions.                                    prior to billing to ensure that only
                                                          accurate and properly documented                     the quality of patient care.
   Billing companies should also reference the
Documentation Guidelines for Evaluation and               services are billed;                                 4. Credit Balances
Management (E/M) Services, published by the                 • Emphasize that claims should be
HCFA. These guidelines are available on the                                                                       Credit balances occur when
Internet at http://www.hcfa.gov/medicare/                 submitted only when appropriate
                                                                                                               payments, allowances or charge
mcarpti.htm.
   51 Billing companies should ensure that they do          52 Examples of reference resources necessary for
                                                                                                               reversals posted to an account exceed
not employ or contract with individuals that have         proper coding include: a medical dictionary; an
                                                                                                                 53 See OIG Ad. Op. 98–1 (1998) and OIG Ad. Op.
been sanctioned by the OIG or barred from Federal         anatomy/physiology textbook; up-to-date ICD,
procurement programs. The Cumulative Sanction             HCPCS and CPT TM code books; Physician’s Desk        98–4 (1998). See also 42 CFR 424.73.
Report is available on the Internet at http://            Reference; Merck Manual; the applicable                54 The OIG recommends that, at a minimum, a

www.dhhs.gov/progorg/oig. In addition, the                contractor’s provider manual; and subscriptions to   valid statistical sample of claims be reviewed
General Services Administration maintains a               the American Hospital Association’s Coding Clinic    annually both before and after billing is submitted.
monthly listing of debarred contractors on the            for ICD–9–CM (and its successors) and the            This review should be done by a qualified expert
Internet at http://www.arnet.gov/epls.                    American Medical Association’s CPT Assistant.        in the applicable coding process.
                            Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                  70145

the charges to the account. Providers                 6. Retention of Records                             management should include a policy
and their billers should establish                       Billing company compliance                       that managers and supervisors will be
policies and procedures, as well as                   programs should provide for the                     sanctioned for failure to instruct
responsibility, for timely and                        implementation of a records system.                 adequately their subordinates or for
appropriate identification and                        This system should establish policies               failure to detect noncompliance with
resolution of these overpayments.55 For               and procedures regarding the creation,              applicable policies and legal
example, a billing company may                        distribution, retention, storage, retrieval         requirements, where reasonable
redesignate segments of its information               and destruction of documents. The three             diligence on the part of the manager or
system to allow for the segregation of                types of documents developed under                  supervisor should have led to the
patient accounts reflecting credit                    this system should include: (1) All                 discovery of any problems or violations.
balances. The billing company could                   records and documentation required by               B. Designation of a Compliance Officer
remove these accounts from the active                 either Federal or State law and the                 and a Compliance Committee
accounts and place them in a holding                  program requirements of Federal, State
account pending the processing of a                   and private health plans (for billing               1. Compliance Officer
reimbursement claim to the appropriate                companies, this should include all
payor. A billing company’s information                                                                      Every billing company should
                                                      documents related to the billing and
system should have the ability to print                                                                   designate a compliance officer to serve
                                                      coding process); (2) records listing the
out the individual patient accounts that                                                                  as the focal point for compliance
                                                      persons responsible for implementing
reflect a credit balance in order to                                                                      activities. This responsibility may be the
                                                      each part of the compliance plan; and
permit simplified tracking of credit                                                                      individual’s sole duty or added to other
                                                      (3) all records necessary to protect the
balances. The billing company should                                                                      management responsibilities, depending
                                                      integrity of the billing company’s
maintain a complete audit trail of all                                                                    upon the size and resources of the
                                                      compliance process and confirm the
credit balances.                                                                                          billing company and the complexity of
                                                      effectiveness of the program. The
                                                                                                          the task. For those billing companies
  In addition, a billing company should               documentation necessary to satisfy the
                                                                                                          that have limited resources, the
designate at least one person (e.g., in the           third requirement includes: evidence of
                                                                                                          compliance function could be
patient accounts department or                        adequate employee training; reports
                                                                                                          outsourced to an expert in
reasonable equivalent thereof) as having              from the billing company’s hotline;
                                                                                                          compliance.57
the responsibility for the tracking,                  results of any investigation conducted
                                                      as a consequence of a hotline call;                   Designating a compliance officer with
recording and reporting of credit
                                                      modifications to the compliance                     the appropriate authority is critical to
balances. Further, a comptroller or an
                                                      program; self-disclosure; all written               the success of the program, necessitating
accountant in the billing company’s
                                                      notifications to providers; 56 and the              the appointment of a high-level official
accounting department (or reasonable
                                                      results of the billing company’s auditing           in the billing company with direct
equivalent thereof) may review reports
                                                      and monitoring efforts.                             access to the company’s governing body,
of credit balances and adjustments on a
                                                                                                          the CEO, all other senior management
monthly basis as an additional                        7. Compliance as an Element of a                    and legal counsel.58 The officer should
safeguard.                                            Performance Plan                                    have sufficient funding and staff to
5. Integrity of Data Systems                             Compliance programs should require               perform his or her responsibilities fully.
                                                      that the promotion of, and adherence to,            Coordination and communication are
   Increasingly, the health care industry             the elements of the compliance program              the key functions of the compliance
is using electronic data interchange                  be a factor in evaluating the                       officer with regard to planning,
(EDI) to conduct business more quickly                performance of all employees.                       implementing and monitoring the
and efficiently. As a result, the industry            Employees should be periodically                    compliance program. With this in mind,
is relying on the capabilities of                     trained in new compliance policies and              the OIG recommends the billing
computers. Billing companies should                   procedures. In addition, all managers               company’s compliance officer closely
establish procedures for maintaining the              and supervisors involved in the coding              coordinate compliance functions with
integrity of its data collection systems.             and claims submission processes                     the provider’s compliance officer.
This should include procedures for                    should:                                               The compliance officer’s primary
regularly backing-up data (either by                     • Discuss with all supervised                    responsibilities should include:
diskette, restricted system or tape) to               employees and relevant contractors the
ensure the accuracy of all data collected             compliance policies and legal                          57 If the billing company chooses to outsource the
in connection with submission of claims               requirements applicable to their                    compliance function, the OIG recommends the
and reporting of credit balances. At all              function;                                           billing company engage an individual with
times, the billing company should have                   • Inform all supervised personnel                significant experience in the billing and coding
a complete and accurate audit trail.                  that strict compliance with these                   industries. Multiple small billing and coding
                                                                                                          facilities may contract with an individual to job-
Additionally, billing companies should                policies and requirements is a condition            share the individual’s time and expertise in the area
develop a system to prevent the                       of employment; and                                  of compliance.
contamination of data by outside                         • Disclose to all supervised personnel              58 The OIG believes that it is not advisable for the

parties. This system should include                   that the billing company will take                  compliance function to be subordinate to the billing
regularly scheduled virus checks.                     disciplinary action up to and including             company’s general counsel, or comptroller or
                                                                                                          similar billing company financial officer. Free
Finally, billing companies should                     termination for violation of these                  standing compliance functions help to ensure
ensure that electronic data are protected             policies or requirements.                           independent and objective legal reviews and
against unauthorized access or                           In addition to making performance of             financial analyses of the institution’s compliance
disclosure.                                           these duties an element in evaluations,             efforts and activities. By separating the compliance
                                                                                                          function from the key management positions of
                                                      the compliance officer or company                   general counsel or chief financial officer (where the
  55 The billing company should also refer to State                                                       size and structure of the billing company make this
escheat laws for the specific requirements relating     56 This should include notifications regarding:   a feasible option), a system of checks and balances
to notifications, time periods and payment of any     inappropriate claims; overpayments; and             is established to more effectively achieve the goals
unclaimed funds.                                      termination of the contract.                        of the compliance program.
70146                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

   • Overseeing and monitoring the                         The compliance officer must have the                  Appropriate members of the compliance
implementation of the compliance                        authority to review all documents and                    committee include the director of billing
program; 59                                             other information that are relevant to                   and the director of coding. The OIG
   • Reporting on a regular basis to the                compliance activities, including, but not                strongly recommends that the
billing company’s governing body, CEO                   limited to, patient records (where                       compliance officer manage the
and compliance committee (if                            appropriate), billing records and records                compliance committee. Once a billing
applicable) on the progress of                          concerning the marketing efforts of the                  company chooses the people that will
implementation and assisting these                      facility and the billing company’s                       accept the responsibilities vested in
components in establishing methods to                   arrangements with other parties,                         members of the compliance committee,
improve the billing company’s                           including employees, professionals on                    the billing company must train these
efficiency and quality of services and to               staff, relevant independent contractors,                 individuals on the policies and
reduce the billing company’s                            suppliers, agents, supplemental staffing                 procedures of the compliance program.
vulnerability to fraud, abuse and waste;                entities and physicians. This policy                        The committee’s responsibilities
   • Periodically revising the program in               enables the compliance officer to review                 should include:
light of changes in the organization’s                  contracts and obligations (seeking the                      • Analyzing the organization’s
needs and in the law and policies and                   advice of legal counsel, where                           regulatory environment, the legal
procedures of Government and private                    appropriate) that may contain referral                   requirements with which it must
payor health plans;                                     and payment provisions that could                        comply 65 and specific risk areas;
   • Reviewing employees’ certifications                violate statutory or regulatory                             • Assessing existing policies and
that they have received, read and                       requirements.                                            procedures that address these areas for
understood the standards of conduct;                       In addition, the compliance officer                   possible incorporation into the
   • Developing, coordinating and                       should be copied on the results of all                   compliance program;
participating in a multifaceted                         internal audit reports and work closely                     • Working with appropriate
educational and training program that                   with key managers to identify aberrant                   departments to develop standards of
focuses on the elements of the                          trends in the coding and billing areas.                  conduct and policies and procedures
compliance program and seeks to ensure                  The compliance officer should ascertain                  that promote allegiance to the
that all appropriate employees and                      patterns that require a change in policy                 company’s compliance program; 66
management are knowledgeable of, and                    and forward these issues to the                             • Recommending and monitoring, in
comply with, pertinent Federal and                      compliance committee to remedy the                       conjunction with the relevant
State standards;                                        problem. A compliance officer should                     departments, the development of
   • Coordinating personnel issues with                 have full authority to stop the                          internal systems and controls to carry
the billing company’s human resources/                  processing of claims that he or she                      out the organization’s standards,
personnel office (or its equivalent) to                 believes are problematic until such time                 policies and procedures as part of its
ensure that providers and employees do                  as the issue in question has been                        daily operations;
not appear in the Cumulative Sanction                   resolved.                                                   • Determining the appropriate
Report; 60                                                                                                       strategy/approach to promote
                                                        2. Compliance Committee
   • Assisting the billing company’s                                                                             compliance with the program and
financial management in coordinating                       The OIG recommends, where                             detection of any potential violations,
internal compliance review and                          feasible,62 that a compliance committee                  such as through hotlines and other fraud
monitoring activities, including annual                 be established to advise the compliance                  reporting mechanisms;
or periodic reviews of departments;                     officer and assist in the implementation                    • Developing a system to solicit,
   • Independently investigating and                    of the compliance program.63 When                        evaluate and respond to complaints and
acting on matters related to compliance,                assembling a team of people to serve as                  problems; and
including the flexibility to design and                 the billing company’s compliance                            • Monitoring internal and external
coordinate internal investigations (e.g.,               committee, the company should include                    audits and investigations for the
responding to reports of problems or                    individuals with a variety of skills.64                  purpose of identifying troublesome
suspected violations) and any resulting                                                                          issues and deficient areas experienced
corrective action with all billing                      on different risk areas, lectures at management and      by the billing company and
                                                        employee meetings, circulation of recent health care     implementing corrective and preventive
departments, providers and sub-                         articles covering fraud and abuse and innovative
providers, agents and, if appropriate,                  changes to compliance training are various               action.
independent contractors;                                examples of approaches and techniques the                   The committee may also address other
   • Developing policies and programs                   compliance officer can employ for the purpose of         functions as the compliance concept
                                                        ensuring continued interest in the compliance            becomes part of the overall operating
that encourage managers and employees                   program and the billing company’s commitment to
to report suspected fraud and other                     its principles and policies.                             structure and daily routine.
improprieties without fear of retaliation;                 62 The OIG recognizes that smaller billing

                                                        companies may not be able to establish a                 officer to demonstrate high integrity, good
and                                                                                                              judgment, assertiveness and an approachable
                                                        compliance committee. In those situations, the
   • Continuing the momentum of the                     compliance officer should fulfill the responsibilities   demeanor, while eliciting the respect and trust of
compliance program and the                              of the compliance committee.                             employees of the billing company. The compliance
accomplishment of its objectives long                      63 The compliance committee benefits from             committee members should also have significant
after the initial years of                              having the perspectives of individuals with varying      professional experience in working with billing,
                                                        responsibilities in the organization, such as            coding, clinical records and auditing principles.
implementation.61                                       operations, finance, audit, human resources,                65 This includes, but is not limited to, the civil

                                                        utilization review, medicine, coding and legal, as       False Claims Act, 31 U.S.C. 3729–3733, the criminal
  59 For multi-site billing companies, the OIG
                                                        well as employees and managers of key operating          false claims statutes, 18 U.S.C. 287, 1001, the fraud
encourages coordination with each billing facility      units. These individuals should have the requisite       and abuse provisions of the Balanced Budget Act
owned by the billing company through the use of         seniority and comprehensive experience within            of 1997, Pub. L. 105–33 and the Health Insurance
a corporate compliance officer.                         their respective departments to implement any            Portability and Accountability Act of 1996, Pub. L.
  60 See note 51.                                       necessary changes in the company’s policies and          104–191.
  61 Periodic on-site visits of the billing company’s   procedures.                                                 66 For billing companies, this includes developing

operations, bulletins with compliance updates and          64 A billing company should expect its                and fostering excellent coordination and
reminders, distribution of audiotapes or videotapes     compliance committee members and compliance              communication with its provider clients.
                            Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                   70147

C. Conducting Effective Training and                 identifying areas that require training                  • General prohibitions on paying or
Education                                            and in carrying out such training.68                   receiving remuneration to induce
                                                     Training instructors may come from                     referrals;
1. Initial Training in Compliance
                                                     outside or inside the organization. New                  • Proper selection and sequencing of
   The proper education and training of              employees should be targeted for                       diagnoses;
corporate officers, managers, employees              training early in their employment.69                    • Improper alterations to
and the continual retraining of current                 As part of the initial training, the                documentation;
personnel at all levels are significant              standards of conduct should be                           • Submitting a claim for physician
elements of an effective compliance                  distributed to all employees.70 At the                 services when rendered by a non-
program. In order to ensure the                      end of this training session, every                    physician (i.e., the ‘‘incident to’’ rule
appropriate information is being                     employee, as well as contracted                        and the physician physical presence
disseminated to the correct individuals,             consultants, should be required to sign                requirement);
the training should be separated into                and date a statement that reflects the                   • Proper documentation of services
two sessions, depending on the                       employee’s knowledge of and                            rendered, including the correct
employees’ involvement in the                        commitment to the standards of                         application of official coding rules and
submission of claims for                             conduct.                                               guidelines;
reimbursement. All employees should                     This attestation should be retained in                • Signing a form for a physician
attend the general session on                        the employee’s personnel file. For                     without the physician’s authorization;
compliance, while employees whose job                contracted consultants, the attestation                and
primarily focuses on submission of                   should become part of the contract and                   • Duty to report misconduct.
claims for reimbursement should be the               remain in the file that contains such                    Clarifying and emphasizing these
participants in the detailed sessions.               documentation. Further, to assist in                   areas of concern through training and
   In the development of a training                  ensuring employees continuously meet                   educational programs are particularly
program, the billing company should                  the expected high standards set forth in               relevant to a billing company’s
consult with its provider clients to                 the code of conduct, any employee                      marketing and financial personnel, in
ensure that a consistent message is                  handbook delineating or expanding                      that the pressure to meet business goals
being delivered and avoid any potential              upon these standards of conduct should                 may render these employees
conflicts in the implementation of                   be regularly updated as applicable                     particularly vulnerable to engaging in
policies and procedures.                             statutes, regulations and Federal health               prohibited practices.
a. General Sessions                                  care program requirements are
                                                     modified.71 Billing companies should                   2. Format of the Training Program
   As part of their compliance programs,             provide an additional attestation in the
billing companies should require all                                                                           The OIG suggests all relevant levels of
                                                     modified standards that stipulates the                 personnel be made part of various
affected personnel to attend training on             employee’s knowledge of and
an annual basis, including appropriate                                                                      educational and training programs of
                                                     commitment to the modifications.                       the billing company.73 Employees
training in Federal and State statutes,
regulations and guidelines, the policies             b. Coding and Billing Training                         should be required to have a minimum
of private payors and training in                       In addition to specific training in the             number of educational hours per year,
corporate ethics. The general training               risk areas identified in section II.A.2,               as appropriate, as part of their
sessions should emphasize the                        above, primary training to appropriate                 employment responsibilities.74 For
organization’s commitment to                         corporate officers, managers and other                 example, as discussed above, certain
compliance with these legal                          billing company staff should include                   employees involved in billing functions
requirements and policies.                           such topics as:                                        should be required to attend periodic
   These training programs should                       • Specific Government and private                   training in applicable reimbursement
include sessions highlighting the                    payor reimbursement principles; 72                     coverage and documentation of
organization’s compliance program,                                                                          records.75 A variety of teaching
summarizing fraud and abuse statutes                    68 Significant variations in functions and          methods, such as interactive training
and regulations, Federal, State and                  responsibilities of different departments or groups    and training in several different
                                                     may create the need for training materials that are
private payor health care program                    tailored to the compliance concerns associated with       73 In addition, where feasible, the OIG
requirements, coding requirements, the               particular operations and duties.                      recommends that a billing company afford outside
claim submission process and marketing                  69 Certain positions, such as those involving the
                                                                                                            contractors and its provider clients the opportunity
practices that reflect current legal and             coding of medical services, create a greater           to participate in the billing company’s compliance
                                                     organizational legal exposure, and therefore require   training and educational programs or develop their
program standards. The organization                  specialized training. Billing companies should fill    own programs that complement the billing
must take steps to communicate                       such positions with individuals who have the           company’s standards of conduct, compliance
effectively its standards and procedures             appropriate educational background, training and       requirements and other rules and practices.
to all affected employees, physicians,               credentials.                                              74 Currently, the OIG is monitoring a significant
                                                        70 Where the billing company has a culturally
independent contractors and other                                                                           number of corporate integrity agreements that
                                                     diverse employee base, the standards of conduct        require many of these training elements. The OIG
significant agents, e.g., by requiring               should be translated into other languages and          usually requires a minimum of one to three hours
participation in training programs and               written at appropriate reading levels.                 annually for basic training in compliance areas.
disseminating publications that explain                 71 The OIG recognizes that not all standards,       Additional training is required for specialty fields
specific requirements in a practical                 policies and procedures need to be communicated        such as billing, coding and marketing.
                                                     to all employees. However, the OIG believes that          75 Appropriate coding and billing depends upon
manner.67 Managers of specific                       the bulk of the standards that relate to complying     the quality and completeness of documentation.
departments or groups can assist in                  with fraud and abuse laws and other ethical areas      Therefore, the OIG believes that the billing
                                                     should be addressed and made part of all               company must foster an environment where
  67 Some publications, such as Special Fraud        employees’ training. The billing company should        interactive communication is encouraged. Health
Alerts, audit and inspection reports, and advisory   determine what additional training to provide          care providers should be reminded that thorough,
opinions, as well as the annual OIG work plan, are   categories of employees based upon their job           precise and timely documentation of services
readily available from the OIG and could be the      responsibilities.                                      provided serves the interests of the patient, the
basis for standards, educational courses and            72 Government, in this context, includes the        interest of the provider, as well as the interests of
programs for appropriate billing employees.          appropriate Medicare carrier or intermediary.          the billing company.
70148                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

languages, particularly where a billing              ongoing audits and risk analysis, while                   2. Hotlines and Other Forms of
company has a culturally diverse staff,              reinforcing the company’s firm                            Communication
should be implemented so that all                    commitment to the general principles of
affected employees are knowledgeable                 compliance and ethical conduct. The                         The OIG encourages the use of
about the institution’s standards of                 newsletter could also include the risk                    hotlines 78 (including anonymous
conduct and procedures for alerting                  areas published by the OIG in its                         hotlines), e-mails, written memoranda,
senior management to problems and                    Special Fraud Alerts. Finally, the billing                newsletters and other forms of
concerns.76 Targeted training should be              company could use the newsletter as a                     information exchange to maintain these
provided to corporate officers, managers             mechanism to address areas of                             open lines of communication.79 If the
and other employees whose actions                    ambiguity in the coding and billing                       billing company establishes a hotline,
affect the accuracy of the claims                    process. The billing company should                       the telephone number should be made
submitted to the Government, such as                 maintain its newsletters in a central                     readily available to all employees and
employees involved in the coding,                                                                              independent contractors, by circulating
                                                     location to document the guidance
billing and marketing processes. All                                                                           the number on wallet cards or
                                                     offered and provide new employees
training materials should be designed to                                                                       conspicuously posting the telephone
take into account the skills, knowledge              with access to guidance previously
                                                     provided.                                                 number in common work areas.80
and experience of the individual                                                                               Employees should be permitted to
trainees. Given the complexity and                   D. Developing Effective Lines of                          report matters on an anonymous basis.
interdependent relationships of many                 Communication                                             Matters reported through the hotline or
departments, it is important for the                                                                           other communication sources that
compliance officer to supervise and                  1. Access to the Compliance Officer
                                                                                                               suggest substantial violations of
coordinate the training program.
                                                        An open line of communication                          compliance policies, Federal, State or
   The OIG recommends attendance and
                                                     between the compliance officer and the                    private payor health care program
participation at training programs be
made a condition of continued                        billing company personnel is equally                      requirements, regulations or statutes
employment and that failure to comply                important to the successful                               should be documented and investigated
with training requirements should result             implementation of a compliance                            promptly to determine their veracity. A
in disciplinary action, including                    program and the reduction of any                          log should be maintained by the
possible termination, when such failure              potential for fraud, abuse and waste.                     compliance officer that records such
is serious. Adherence to the provisions              Written confidentiality and non-                          calls, including the nature of any
of the compliance program, such as                   retaliation policies should be developed                  investigation and its results.81 Such
training requirements, should be a factor            and distributed to all employees to                       information should be included in
in the annual evaluation of each                     encourage communication and the                           reports to the governing body, the CEO
employee. The billing company should                 reporting of incidents of potential                       and compliance committee.82 Further,
retain adequate records of its training of           fraud.77 The compliance committee                         while the billing company should
employees, including attendance logs                 should also develop several                               always strive to maintain the
and material distributed at training                 independent reporting paths for an                        confidentiality of an employee’s
sessions.                                            employee to report fraud, waste or abuse                  identity, it should also explicitly
3. Continuing Education on Compliance                so that such reports cannot be diverted                   communicate that there may be a point
Issues                                               by supervisors or other personnel.                        where the individual’s identity may

  It is essential that compliance issues                The OIG encourages the establishment
                                                                                                                  78 The OIG recognizes that it may not be
remain at the forefront of the billing               of procedures for personnel to seek                       financially feasible for a small billing company to
company’s priorities. The OIG                        clarification from the compliance officer                 maintain a telephone hotline dedicated to receiving
recommends billing company                           or members of the compliance                              calls solely on compliance issues. These companies
                                                     committee in the event of any confusion                   may explore alternative methods, e.g., contracting
compliance programs address the need                                                                           with an independent source to provide hotline
for periodic professional education                  or question regarding a company policy,                   services or establishing a written method of
courses for billing company personnel.               practice or procedure. Questions and                      confidential disclosure.
In particular, the billing company                   responses should be documented and                           79 In addition to methods of communication used

                                                                                                               by current employees, an effective employee exit
should ensure that coding personnel                  dated and, if appropriate, shared with                    interview program could be designed to solicit
receive annual professional training on              other staff so that standards, policies,                  information from departing employees regarding
the updated codes for the current year.              practices and procedures can be                           potential misconduct and suspected violations of
  In order to maintain a sense of                    updated and improved to reflect any                       the billing company’s policy and procedures.
                                                                                                                  80 Billing companies should also post in a
seriousness about compliance in the                  necessary changes or clarifications. The                  prominent, available area the HHS–OIG Hotline
billing company’s operations, the billing            compliance officer may want to solicit                    telephone number, 1–800–447–8477 (HHS–TIPS),
company must continue to disseminate                 employee input in developing these                        in addition to any company hotline number that
the compliance message. One effective                communication and reporting systems.                      may be posted.
                                                                                                                  81 To efficiently and accurately fulfill such an
mechanism for maintaining a consistent
                                                                                                               obligation, the billing company should create an
presence of the compliance message is                                                                          intake form for all compliance issues identified
to publish a monthly newsletter to                                                                             through reporting mechanisms. The form could
address compliance concerns. This                      77 The OIG believes that whistle blowers should         include information concerning the date the
would allow the billing company to                   be protected against retaliation, a concept embodied      potential problem was reported, the internal
                                                                                                               investigative methods utilized, the results of any
address specific examples of problems                in the provisions of the False Claims Act. See 31
                                                                                                               investigation, any corrective action implemented,
the company encountered during its                   U.S.C. 3730(h). In many cases, employees sue their        any disciplinary measures imposed and any
                                                     employers under the False Claims Act’s qui tam            overpayments and monies returned.
  76 Post-training tests can be used to assess the   provisions out of frustration because of the                 82 Information obtained over the hotline may

success of training provided and employee            company’s failure to take action when a                   provide valuable insight into management practices
comprehension of the billing company’s policies      questionable, fraudulent or abusive situation was         and operations, whether reported problems are
and procedures.                                      brought to the attention of senior corporate officials.   actual or perceived.
                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                70149

become known or may have to be                   It is vital to publish and disseminate               direct responsibility for or involvement
revealed.                                      the range of possible disciplinary                     with all Federal health care programs.
   The OIG recognizes that assertions of       actions for improper conduct and to
                                                                                                      F. Auditing and Monitoring
fraud and abuse by employees who may           educate officers and other staff
                                               regarding these standards. The                            An ongoing evaluation process is
have participated in illegal conduct or
                                               consequences of noncompliance should                   critical to a successful compliance
committed other malfeasance raise
                                               be consistently applied and enforced for               program. The OIG believes an effective
numerous complex legal and
                                               the disciplinary policy to have the                    program should incorporate thorough
management issues that should be
                                               required deterrent effect. All levels of               monitoring of its implementation and
examined on a case-by-case basis. The
                                               employees should be subject to the same                regular reporting to senior company
compliance officer should work closely
                                               disciplinary action for the commission                 officers.85 Compliance reports created
with legal counsel, who can provide
guidance regarding such issues.                of similar offenses. The commitment to                 by this ongoing monitoring, including
                                               compliance applies to all personnel                    reports of suspected noncompliance,
E. Enforcing Standards Through Well-p                                                                 should be maintained by the
                                               levels within a billing company. The
ublicized Disciplinary Guidelines                                                                     compliance officer and reviewed with
                                               OIG believes that corporate officers,
1. Discipline Policy and Actions                                                                      the billing company’s senior
                                               managers and supervisors should be
                                                                                                      management and the compliance
                                               held accountable for failing to comply
   An effective compliance program                                                                    committee. The extent and frequency of
                                               with, or for the foreseeable failure of
should include guidance regarding                                                                     the audit function may vary depending
                                               their subordinates to adhere to, the
disciplinary action for corporate                                                                     on factors such as the size of the
                                               applicable standards, laws, rules,                     company, the resources available to the
officers, managers and employees who
                                               program instructions and procedures.                   company, the company’s prior history of
have failed to comply with the billing
company’s standards of conduct,                2. New Employee Policy                                 noncompliance and the risk factors that
policies and procedures, Federal, State                                                               are prevalent in a particular billing
or private payor health care program              For all new employees who have                      company.
requirements, or Federal and State laws,       discretionary authority to make                           Although many monitoring
or those who have otherwise engaged in         decisions that may involve compliance                  techniques are available, one effective
wrongdoing, which has the potential to         with the law or compliance oversight,                  tool to promote and ensure compliance
impair the billing company’s status as a       billing companies should conduct a                     is the performance of regular, periodic
reliable, honest and trustworthy               reasonable and prudent background                      compliance audits by internal or
organization.                                  investigation, including a reference                   external auditors who have expertise in
                                               check, as part of every such                           Federal and State health care statutes,
   The OIG believes the compliance
                                               employment application. The                            regulations, and Federal, State and
program should include a written policy
                                               application should specifically require                private payor health care program
statement setting forth the degrees of
                                               the applicant to disclose any criminal                 requirements. The audits should focus
disciplinary actions that may be
                                               conviction, as defined by 42 U.S.C.                    on the billing company’s programs or
imposed upon corporate officers,
                                               1320a-7(i), or exclusion action. Pursuant              divisions, including external
managers and employees for failing to
                                               to the compliance program, billing                     relationships with third-party
comply with the billing company’s
                                               company policies should prohibit the                   contractors, specifically those with
standards and policies and applicable
                                               employment of individuals who have                     substantive exposure to Government
statutes and regulations. Intentional or
                                               been recently convicted of a criminal                  enforcement actions. At a minimum,
reckless noncompliance should subject
                                               offense related to health care or who are              these audits should be designed to
transgressors to significant sanctions.
                                               listed as debarred, excluded or                        address the billing company’s
Such sanctions could range from oral
                                               otherwise ineligible for participation in              compliance with laws governing
warnings to suspension, termination or
                                               Federal health care programs.83 In                     kickback arrangements, coding
financial penalties, as appropriate. Each
                                               addition, pending the resolution of any                practices, claim submission,
situation must be considered on a case-
                                               criminal charges or proposed debarment                 reimbursement and marketing. In
by-case basis to determine the
                                               or exclusion, the OIG recommends that                  addition, the audits and reviews should
appropriate sanction. The written
                                               such individuals should be removed                     examine the billing company’s
standards of conduct should elaborate
                                               from direct responsibility for, or                     compliance with specific rules and
on the procedures for handling
                                               involvement, in any Federal health care                policies that have been the focus of
disciplinary problems and identify who
                                               program.84 Similarly, with regard to                   particular attention on the part of the
will be responsible for taking
                                               current employees or independent                       Medicare fiscal intermediaries or
appropriate action. Some disciplinary
                                               contractors, if resolution of the matter               carriers, and law enforcement, as
actions can be handled by department
                                               results in conviction, debarment or                    evidenced by OIG Special Fraud Alerts,
managers, while others may have to be
                                               exclusion, then the billing company                    OIG audits and evaluations and law
resolved by a senior manager.
                                                                                                      enforcement’s initiatives.86 In addition,
Disciplinary action may be appropriate         should remove the individual from
where a responsible employee’s failure                                                                the billing company should focus on
to detect a violation is attributable to his      83 See note 51. Likewise, billing company
                                                                                                      any areas of specific concern identified
or her negligence or reckless conduct.         compliance programs should establish standards         within that billing company and those
Personnel should be advised by the             prohibiting the execution of contracts with
                                               companies that have been recently convicted of a          85 Even when a facility is owned by a larger
billing company that disciplinary action       criminal offense related to health care or that are    corporate entity, the regular auditing and
will be taken on a fair and equitable          listed by a Federal agency as debarred, excluded or    monitoring of the compliance activities of an
basis. Managers and supervisors should         otherwise ineligible for participation in Federal      individual facility must be a key feature in any
be made aware that they have a                 health care programs.                                  annual review. Appropriate reports on audit
                                                  84 Prospective employees who have been officially   findings should be periodically provided and
responsibility to discipline employees         reinstated into the Medicare and Medicaid              explained to a parent-organization’s senior staff and
in an appropriate and consistent               programs by the OIG may be considered for              officers.
manner.                                        employment upon proof of such reinstatement.              86 See section II.A.2.
70150                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

that may have been identified by any                    appropriate records have been created                     • Specifically identify areas where
outside agency, whether Federal or                      and maintained to document the                         corrective actions are needed.
State.                                                  implementation of an effective program.                   With these reports, management can
   Monitoring techniques may include                    However, when monitoring discloses                     take whatever steps are necessary to
sampling protocols that permit the                      deviations were not detected in a timely               correct past problems and prevent them
compliance officer to identify and                      manner due to program deficiencies,                    from recurring. In certain cases,
review variations from an established                   appropriate modifications must be                      subsequent reviews or studies would be
baseline.87 Significant variations from                 implemented. Such evaluations, when                    advisable to ensure that the
the baseline should trigger a reasonable                developed with the support of                          recommended corrective actions have
inquiry to determine the cause of the                   management, can help ensure                            been implemented successfully.
deviation. If the inquiry determines that               compliance with the billing company’s                     The billing company should
the deviation occurred for legitimate,                  policies and procedures.                               document its efforts to comply with
explainable reasons, the compliance                        As part of the review process, the                  applicable statutes, regulations and
officer or manager may want to limit                    compliance officer or reviewers should                 Federal health care program
any corrective action or take no action.                consider techniques such as:                           requirements. For example, where a
If it is determined that the deviation was                 • On-site visits;                                   billing company, in its efforts to comply
caused by improper procedures,                             • Testing billing and coding staff on               with a particular statute, regulation or
misunderstanding of rules, including                    their knowledge of reimbursement and                   program requirement, requests advice
fraud and systemic problems, the billing                coverage criteria (e.g., presenting                    from a Government agency (including a
company should take prompt steps to                     hypothetical scenarios of situations                   Medicare fiscal intermediary or carrier)
correct the problem.88 Any                              experienced in daily practice and assess               charged with administering a Federal
overpayments discovered as a result of                  responses);                                            health care program, the billing
such deviations should be reported                         • Unannounced mock surveys, audits                  company should document and retain a
promptly to the appropriate provider,                   and investigations;                                    record of the request and any written or
with appropriate documentation and a                       • Examination of the billing                        oral response. This step is extremely
thorough explanation of the reason for                  company’s complaint logs;                              important if the billing company
the overpayment.89                                         • Checking personnel records to
                                                                                                               intends to rely on that response to guide
   An effective compliance program                      determine whether any individuals who
                                                                                                               it in future decisions, actions or claim
should also incorporate periodic (at a                  have been reprimanded for compliance
                                                                                                               reimbursement requests or appeals. A
minimum, annual) reviews of whether                     issues in the past are among those
                                                                                                               log of oral inquiries between the billing
the program’s compliance elements                       currently engaged in improper conduct;
                                                           • Interviews with personnel involved                company and third parties will help the
have been satisfied, e.g., whether there                                                                       organization document its attempts at
has been appropriate dissemination of                   in management, operations, coding,
                                                        claim development and submission and                   compliance. In addition, the billing
the program’s standards, training,                                                                             company should maintain records
ongoing educational programs and                        other related activities;
                                                           • Questionnaires developed to solicit               relevant to the issue of whether its
disciplinary actions, among others.90                                                                          reliance was ‘‘reasonable,’’ and whether
                                                        impressions of a broad cross-section of
This process will verify actual                                                                                it exercised due diligence in developing
                                                        the billing company’s employees and
conformance by all departments with                                                                            procedures to implement the advice.
                                                        staff;
the compliance program. Such reviews                       • Reviews of written materials and
could support a determination that                                                                             G. Responding to Detected Offenses and
                                                        documentation prepared by the different                Developing Corrective Action Initiatives
   87 The OIG recommends that when a compliance
                                                        divisions of a billing company; and
program is established in a billing company, the
                                                           • Trend analyses, or longitudinal                   1. Violations and Investigations
compliance officer, with the assistance of              studies, that seek deviations, positive or                Violations of the billing company’s
department managers, take a ‘‘snapshot’’ of the         negative, in specific areas over a given               compliance program, failures to comply
company’s operations from a compliance                  period.
perspective. This assessment can be undertaken by
                                                                                                               with applicable Federal or State law,
                                                           The reviewers should:                               rules and program instructions and
outside consultants, law or accounting firms, or
internal staff, with authoritative knowledge of
                                                           • Possess the qualifications and                    other types of misconduct threaten a
health care compliance requirements. This               experience necessary to adequately                     billing company’s status as a reliable,
‘‘snapshot,’’ often used as part of bench marking       identify potential issues with the subject             honest and trustworthy company.
analysis, becomes a baseline for the compliance         matter to be reviewed;                                 Detected but uncorrected misconduct
officer and other managers to judge the billing            • Be objective and independent of
company’s progress in reducing or eliminating                                                                  can seriously endanger the mission,
potential areas of vulnerability. For example, it has   line management; 91
                                                           • Have access to existing audit and                 reputation and legal status of the billing
been suggested that a baseline level include the
frequency and percentile levels of CPTTM and            health care resources, relevant                        company. Consequently, upon reports
HCPCS codes. Similarly, billing companies should        personnel and all relevant areas of                    or reasonable indications of suspected
track statistical data on claim rejection by code.
                                                        operation;                                             noncompliance, it is important that the
This will facilitate identification of problem areas                                                           chief compliance officer or other
and elimination of potential areas of abusive or           • Present written evaluative reports
fraudulent conduct.                                     on compliance activities to the CEO,                   management officials promptly
   88 Prompt steps to correct the problem include       governing body members of the                          investigate the conduct in question to
contacting the appropriate provider in situations       compliance committee and its provider                  determine whether a material violation
where the provider’s actions contributed to the
                                                        clients on a regular basis, but not less               of applicable law, rule or program
problem.                                                                                                       instruction or the requirements of the
   89 In addition, when appropriate, as referenced in   than annually; 92 and
section G.2, below, reports of fraud or systemic
                                                                                                               compliance program has occurred, and
problems should also be made to the appropriate           91 The OIG recognizes that billing companies that    if so, take steps to correct the problem.93
governmental authority.                                 are small in size and have limited resources may
   90 One way to assess the knowledge, awareness        not be able to use internal reviewers who are not        93 Instances of non-compliance must be

and perceptions of the billing company staff is         part of line management or hire outside reviewers.     determined on a case-by-case basis. The existence,
through the use of a validated survey instrument          92 These evaluative reports should include a valid   or amount, of a monetary loss to a health care
(e.g., employee questionnaires, interviews or focus     statistical sample of claims submitted to Federal      program is not solely determinative of whether or
groups).                                                health care programs.                                  not the conduct should be investigated and reported
                             Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices                                                      70151

As appropriate, such steps may include                   circumstances that formed the basis for                  reasonable period, but not more than
an immediate referral to criminal and/                   the investigation to determine whether                   sixty (60) days after determining that
or civil law enforcement authorities, a                  similar problems have been uncovered                     there is credible evidence of a violation.
corrective action plan,94 a report to the                or modifications of the compliance                       Prompt reporting will demonstrate the
Government,95 and the notification to                    program are necessary to prevent and                     billing company’s good faith and
the provider of any discrepancies or                     detect other inappropriate conduct or                    willingness to work with governmental
overpayments, if applicable.                             violations.                                              authorities to correct and remedy the
   Even if the overpayment detection                        If an investigation of an alleged                     problem. In addition, reporting such
and return process is working and is                     violation is undertaken and the                          conduct will be considered a mitigating
being monitored by the billing                           compliance officer believes the integrity                factor by the OIG in determining
company’s audit or coding divisions,                     of the investigation may be at stake                     administrative sanctions (e.g., penalties,
the OIG still believes that the                          because of the presence of employees                     assessments and exclusion), if the
compliance officer needs to be made                      under investigation, those subjects                      reporting company becomes the target of
aware of these significant overpayments,                 should be removed from their current                     an OIG investigation.99
violations or deviations that may reveal                 work activity until the investigation is
trends or patterns indicative of a                       completed (unless an internal or                         b. Obligations Based on Provider
systemic problem.                                        Government-led undercover operation                      Misconduct
   Depending upon the nature of the                      known to the billing company is in                          Billing companies are in a unique
alleged violations, an internal                          effect). In addition, the compliance                     position to discover various types of
investigation will probably include                      officer should take appropriate steps to                 fraud, waste, abuse and mistakes on the
interviews and a review of relevant                      secure or prevent the destruction of                     part of the provider for which they
documents. Some billing companies                        documents or other evidence relevant to                  furnish services. This unique access to
should consider engaging outside                         the investigation. If the billing company                information may place the billing
counsel, auditors or health care experts                 determines disciplinary action is                        company in a precarious position. On
to assist in an investigation. Records of                warranted, it should be prompt and                       the one hand, the billing company’s
the investigation should contain                         imposed in accordance with the billing                   allegiance is to the provider client. On
documentation of the alleged violation,                  company’s written standards of                           the other, the billing company
a description of the investigative                       disciplinary action.                                     maintains a commitment to compliance
process (including the objectivity of the                                                                         with the applicable Federal and State
investigators and methodologies                          2. Reporting
                                                                                                                  laws, and the program requirements of
utilized), copies of interview notes and                 a. Obligations Based on Billing                          Federal, State and private health plans.
key documents, a log of the witnesses                    Company Misconduct                                       The OIG recognizes the importance of
interviewed and the documents                               If the compliance officer, compliance                 maintaining a positive and interactive
reviewed, the results of the                             committee or a management official                       communication between billing
investigation, e.g., any disciplinary                    discovers credible evidence of                           companies and the providers they
action taken and any corrective action                   misconduct by the billing company                        service. It is with this understanding
implemented. Although any action                         from any source and, after reasonable                    that the OIG has addressed the issue of
taken as the result of an investigation                  inquiry, has reason to believe that the                  obligations on the part of third-party
will necessarily vary depending upon                     misconduct may violate criminal, civil                   medical billing companies with regard
the billing company and the situation,                   or administrative law,97 then the billing                to provider misconduct.
billing companies should strive for                      company should report the existence of                      If the billing company finds evidence
some consistency by utilizing sound                      misconduct promptly to the appropriate                   of misconduct 100 (e.g., inaccurate claim
practices and disciplinary protocols.96                  Government authority 98 within a                         submission) on the part of the provider
Further, after a reasonable period, the
                                                                                                                  that they service, the billing company
compliance officer should review the                        97 When making the determination of credible
                                                                                                                  should refrain from the submission of
                                                         misconduct, the billing company should consider
                                                         18 U.S.C. 669 [holding an individual(s) criminally       questionable claims and notify the
to governmental authorities. In fact, there may be
instances where there is no readily identifiable         liable for knowingly and willfully embezzling,           provider in writing within thirty (30)
monetary loss at all, but corrective action and          stealing or otherwise converting to the use of any       days of such a determination. This
reporting are still necessary to protect the integrity   person other than the rightful owner or                  notification should include all claim
of the applicable program and its beneficiaries.         intentionally misapplying any of the monies, funds
   94 Advice from the billing company’s in-house         . . . premiums, credits, property or assets of a         specific information and the rationale
counsel or an outside law firm may be sought to          health care benefit program] and 18 U.S.C. 2             for such a determination.
determine the extent of the billing company’s            (establishing criminal liability for an individual(s)       If the billing company discovers
                                                         who commits an offense against the United States
liability and to plan the appropriate course of
                                                         or aids, abets, counsels, commands, induces or
                                                                                                                  credible evidence of the provider’s
action.                                                                                                           continued misconduct or flagrant
   95 The OIG currently maintains a provider self-
                                                         procures its commission as punishable as the
disclosure protocol that encourages providers to
                                                         principle).                                              fraudulent or abusive conduct,101 the
                                                            98 Appropriate Federal and/or State authorities
report suspected fraud. The concept of self-
                                                         include the Office of Inspector General of the             99 The OIG has published criteria setting forth
disclosure is premised on a recognition that the
                                                         Department of Health and Human Services, the             those factors that the OIG takes into consideration
Government alone cannot protect the integrity of         Criminal and Civil Divisions of the Department of
the Medicare and other Federal health care                                                                        in determining whether it is appropriate to exclude
                                                         Justice, the U.S. Attorneys in the relevant districts,
programs. Health care providers must be willing to                                                                a health care provider from program participation
                                                         and the other investigative arms for agencies
police themselves, correct underlying problems and                                                                pursuant to 42 U.S.C. 1320a–7(b)(7) for violations
                                                         administering the affected Federal or State health
work with the Government to resolve these matters.                                                                of various fraud and abuse laws. See 62 FR 67,392
                                                         care programs, such as the State Medicaid Fraud
The self-disclosure protocol can be located on the       Control Unit, the Defense Criminal Investigative         (12/24/97).
OIG’s website at http://www.dhhs.gov/progorg/oig.        Service, the Department of Veterans Affairs, the
                                                                                                                    100 Misconduct does not include inadvertent
   96 The parameters of a claim review subject to an
                                                         Office of Inspector General, U.S. Department of          errors or mistakes. Such errors should be reported
internal investigation will depend on the                Labor (which has primary criminal jurisdiction over      through the normal channels with the applicable
circumstances surrounding the issue(s) identified.       FECA, Black Lung and Longshore programs) and             carrier, intermediary or other HCFA-designated
By limiting the scope of the internal audit to current   the Office of Inspector General, U.S. Office of          payor.
billing, a billing company may fail to identify major    Personnel Management (which has primary                    101 Such conduct may include patterns of

problems and deficiencies in operations, as well as      jurisdiction over the Federal Employees Health           misconduct, particularly with regard to conduct
be subject to certain liability.                         Benefit Program).                                                                                   Continued
70152                        Federal Register / Vol. 63, No. 243 / Friday, December 18, 1998 / Notices

billing company should: (1) Refrain                      ensure that overpayments are identified                DEPARTMENT OF HEALTH AND
from submitting any false or                             quickly and encourage their providers to               HUMAN SERVICES
inappropriate claims; (2) terminate the                  promptly return overpayments obtained
contract; and/or (3) report the                          from Medicare or other Federal health                  National Institutes of Health
misconduct to the appropriate Federal                    care programs.105
and State authorities within a                                                                                  National Human Genome Research
reasonable time, but not more than sixty                 III. Conclusion                                        Institute; Notice of Closed Meeting
(60) days after determining that there is                   Through this document, the OIG has                     Pursuant to section 10(d) of the
credible evidence of a violation.                        attempted to provide a foundation to the               Federal Advisory Committee Act, as
c. Reporting Procedure                                   process necessary to develop an                        amended (5 U.S.C. Appendix 2), notice
                                                         effective and cost-efficient third-party               is hereby given of the following
   When reporting misconduct to the                      medical billing compliance program. As                 meeting.
Government, a billing company should                     previously stated, however, each                          The meeting will be closed to the
provide all evidence relevant to the                     program must be tailored to fit the needs              public in accordance with the
alleged violation of applicable Federal                  and resources of an individual billing                 provisions set forth in sections
or State law(s) and the potential cost                   company, depending upon its particular                 552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
impact. The compliance officer, with                     corporate structure, mission and                       as amended. The grant applications and
guidance from the governmental                           employee composition. The statutes,                    the discussions could disclose
authorities, could be requested to                       regulations and guidelines of the                      confidential trade secrets or commercial
continue to investigate the reported                     Federal and State health insurance                     property such as patentable material,
violation. Once the investigation is                     programs, as well as the policies and                  and personal information concerning
completed, the compliance officer                        procedures of the private health plans,                individuals associated with the grant
should be required to notify the                         should be integrated into every billing                applications, the disclosure of which
appropriate governmental authority of                    company’s compliance program.                          would constitute a clearly unwarranted
the outcome of the investigation,                                                                               invasion of personal privacy.
including a description of the impact of                    The OIG recognizes that the health
the alleged violation on the operation of                care industry in this country, which                     Name of Committee: National Human
                                                         reaches millions of beneficiaries and                  Genome Research Institute Special Emphasis
the applicable health care programs or                                                                          Panel.
their beneficiaries. If the investigation                expends about a trillion dollars
                                                         annually, is constantly evolving. In                     Date: January 15, 1999.
ultimately reveals criminal, civil or                                                                             Time: 8:00 AM to 6:00 PM.
administrative violations have occurred,                 particular, the billing process has                      Agenda: To review and evaluate grant
the appropriate Federal and State                        changed dramatically in recent years. As               applications.
officials 102 should be notified                         a result, the time is right for billing                  Place: Hyatt Regency Hotel, One Bethesda
immediately.                                             companies to implement strong,                         Metro Center, Bethesda, MD 20814.
                                                         voluntary compliance programs. As                        Contact Person: Rudy O POZZATTI, PHD,
3. Corrective Actions                                    stated throughout this guidance,                       Scientific Review Administrator, Office of
                                                         compliance is a dynamic process that                   Scientific Review, National Human Genome
   Billing companies play a critical role                                                                       Research Institute, National Institutes of
in the restitution of overpayments to                    helps to ensure billing companies are                  Health, Bethesda, MD 20892, 301 402–0838.
appropriate payors.103 As previously                     better able to fulfill their commitment to
                                                         ethical behavior and to meet the                       (Catalogue of Federal Domestic Assistance
stated, billing companies should take
                                                         changes and challenges being imposed                   Program Nos. 93.172, Human Genome
appropriate corrective action, including                                                                        Research, National Institutes of Health, HHS)
prompt identification of any                             upon them by Congress and private
                                                                                                                  Dated: December 11, 1998.
overpayment to the provider and the                      insurers. Ultimately, it is OIG’s hope
                                                         that voluntarily created compliance                    LaVerne Y. Stringfield,
affected payor and the imposition of
proper disciplinary action, if applicable.               programs will enable billing companies                 Committee Management Officer, NIH.
Failure to notify authorities of an                      to meet their goals and substantially                  [FR Doc. 98–33617 Filed 12–17–98; 8:45 am]
overpayment within a reasonable period                   reduce fraud, waste and abuse, as well                 BILLING CODE 4140–01–M
of time could be interpreted as an                       as the cost of health care to Federal,
intentional attempt to conceal the                       State and private health insurers.
overpayment from the Government,                                                                                DEPARTMENT OF HEALTH AND
                                                           Dated: December 14, 1998.
thereby establishing an independent                                                                             HUMAN SERVICES
                                                         June Gibbs Brown,
basis for a criminal violation with                      Inspector General.                                     National Institutes of Health
respect to the billing company, as well
                                                         [FR Doc. 98–33565 Filed 12–17–98; 8:45 am]
as any individuals who may have been                                                                            National Human Genome Research
                                                         BILLING CODE 4150–04–P
involved.104 For this reason, billing                                                                           Institute; Notice of Closed Meeting
company compliance programs should
                                                           105 If a billing company needs further guidance to
                                                                                                                   Pursuant to section 10(d) of the
                                                         inform its provider clients of normal repayment        Federal Advisory Committee Act, as
that had previously been identified by the billing       channels, the company should consult with the
company or carrier as suspect.                           applicable Medicare intermediary/carrier. The          amended (5 U.S.C. Appendix 2), notice
   102 See note 98.
                                                         applicable Medicare intermediary/carrier may           is hereby given of the following
   103 As a result of the limitations on reassignment,
                                                         require certain information (e.g., alleged violation   meeting.
billing companies rarely engage in receiving             or issue causing overpayment, description of              The meeting will be closed to the
payment on behalf of their provider clients or           overpayment, description of the internal
negotiating checks on behalf of their provider           investigative process with methodologies used to
                                                                                                                public in accordance with the
clients. Because of these provisions, the OIG            determine any overpayments, disciplinary actions       provisions set forth in sections
recognizes that billing companies are rarely in the      taken and corrective actions taken) to be submitted    552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
position to make restitution on behalf of their          with return of any overpayments, and that such         as amended. The grant applications and
clients and it is generally viewed as the provider’s     repayment information be submitted to a specific
responsibility to make restitution to the appropriate    department or individual in the carrier or
                                                                                                                the discussions could disclose
payor. See 42 CFR 424.73.                                intermediary’s organization. Interest will be          confidential trade secrets or commercial
   104 See 42 U.S.C. 1320a-7b(a)(3).                     assessed, when appropriate. See 42 CFR 405.376.        property such as patentable material,
